                CLOSEOUT MEMORANDUM FOR M 99120055

 An NSF program director' brought an allegation of misconduct in science to our
 attention. The complainant2who received the subject's NSF proposal3to review, alleged
 that the subject used some of the complainant's ideas in the proposal without
 appropriately citing the complainant as -thesource of the ideas (intellectual theft).

 After the subject presented a paper at a workshop: the complainant said he initiated a
 discussion with the subject about their mutual research interests. According to the
 complainant, he shared some of his ideas about how the subject's research could be
 enhance and changed. He also suggested to the subject that they collaborate in the future
 and, at the subject's request, the complainant provided the subject with copies of his
relevant publications. The subject's proposal, submitted to NSF about 1% years after
their discussion, cited the complainant's publications that, according to the complainant,
contained the ideas they had discussed. Furthermore, the complainant said that all the
work presented in the proposal was the subject's. The complainant claimed that only the
ideas about enhancements and changes were used by the subject bithout citation or
permission.                  ,


 We confirmed that the subject had cited the complainant's papers5 in the proposal five
 times. Scientists attend meetings and workshops chiefly to share ideas. These
discussions are hdarnental to how science works. In this case, it would be difficult to
establish, exactly which, if any, ideas were shared in a discussion between the subject and
the complainant and whether any of these ideas were (1) unique to either individual, and
did not appear in the cited publications, or (2) could have been derived fiom the cited
publications. We concluded that there was no substance to the allegation of intellectual
theft.

This inquiry is closed and no further action will be taken.

cc:Integrity, IG




                                       Page 1 of 1                              M 99-55
